WAIVER
SUPREME COURT OF THE UNITED STATE
No.

Supreme Court, U.S.
FILED

AUG 1 7 2021 .
OFFICE OF THE CLERK

21-197

(Yvonne Reignat-Vodi

Motor Vehicle Administration

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

8/17/21

(Type or print) Name

David a`Merkin
Mr.

0 Ms.

0 Mrs.

0 Miss

Firm

Assistant Attorney General, Maryland Office of the Attorney General

Address

Motor Vehicle Administration, 6601 Ritchie Highway, N.E., Room 200

City & State

Glen Burnie, Maryland

Phone

410-768-7414

Zip 21062
Email

dmerkin@oag.state.md.us

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service r c9FrecENEDed.

cc:

Yvonne Reignat-Vodi, pro se
1810 Metzerott Road, Apt. 47
Adelphi, Maryland 20783

AUG 2 0 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

